CERTIFICATE OF SERVICE
I hereby certify that true and accurate copies of the
foregoing Petition for Writ of Certiorari, Appendix, and
Motion to Proceed in Forma Pauperis were served in
accordance with Rule 29.5(a) of the Rules of the Supreme
Court of the United States on this 3rd day of August, 2020,
to the Clerk of this Court and the following parties:
Attorney Robert J. Scheinblum
Appellate Prosecutor
Office of the Chief State’s Attorney
Appellate Bureau
300 Corporate Place
Rocky Hill, Connecticut 06067
Tel: (860) 258-5807
Fax: (860) 258-5828
DCJ.ocsa.appellate@ct.gov
Mr. Anthony Collymore,
Defendant-Appellant
Inmate #336848
MacDougall-Walker Correctional Institution
1115 East Street South
Suffield, Connecticut 06086
___#312973_________
Susan M. Hankins
Counsel of Record
P.O. Box 999
Bridgeport, CT 06601
Tel: (203) 870-9944
SMHankins@gulashlaw.com

